               U.S. Department of Energy
               Office of Inspector General
               Office of Audits and Inspections




Audit Report
Department of Energy's Isotope
Development and Production for
Research and Applications
Program's Fiscal Year 2010 Balance
Sheet Audit




OAS-FS-13-09                        January 2013
                                   Department of Energy
                                     Washington, DC 20585
                                          January 15, 2013



MEMORANDUM FOR THE DIRECTOR, OFFICE OF SCIENCE


FROM:                  Daniel M. Weeber
                       Assistant Inspector General for Audits and Administration
                       Office of Inspector General

SUBJECT:               INFORMATION
                       INFORMATION: Department of Energy's Isotope Development and
                       Production for Research and Applications Program's Fiscal Year 2010
                       Balance Sheet Audit

The attached report presents the results of the independent certified public accountants'
audit of the Department of Energy's Isotope Development and Production for Research
and Applications Program's (Isotope Program) balance sheets,, as of September 30, 2010
                                                                                     201
and 2009.

The Office of Inspector General (OIG) engaged the independent public accounting firm of
KPMG, LLP (KMPG) to conduct the audit, subject to our review. KPMG is responsible for
expressing an opinion on the Isotope Program's balance sheet. In connection with the audit,
KPMG
  PMG also considered the Isotope Program's internal controls over financial reporting and
tested compliance with laws and regulations. The OIG monitored audit progress and reviewed
the audit report and related documentation. This review disclosed no insta
                                                                      instances
                                                                           nces where KPMG
did not comply, in all material respects, with generally accepted Government auditing standards.
The OIG did not express an independent opinion on the Isotope Program's balance sheet.

KPMG concluded that,, except for the effects on the bal balance
                                                           ance sheet as of September 30, 2009, of
such adjustments, if any, as might have been determined to be necessary had KPMG been able
to apply sufficient procedures to support the Isotope Program's undelivered orders as presented
in the classifications of fundd balance with Treasury in Note 2, the Isotope Program's balance
sheet as of September 30, 2010 and 20092009,, is presented fairly, in all material respects, in
conformity with U.S. generally accepted accounting principles.

                                  ors also considered the Isotope Program's internal
As part of this review, the auditors
controls over financial reporting and tested for compliance with certain provisions of
laws, regulations and contracts.
                             acts. The audit identified the following deficiencies in internal
control over financial reporting related to controls over inventory accounting and
improvements needed in the preparation and review of manual journal entries that were
considered to be material
                      erial weaknesses
                            weaknesses:

   1. Controls over Inventory Accounting
                                                  2


   2. Improvements Needed in the Preparation and Review of Manual Journal Entries

Additionally, the audit identified other deficiencies in internal control over financial
reporting that were considered to be a significant deficiency:

     1. Unclassified Network and Information Systems Security

The audit disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards.

We appreciate the cooperation of your staff during the audit.

                                                                Report No.: OAS-FS-13-09

Attachment

cc: Director, Facilities and Project Management Division, Office of Nuclear Physics, SC-26.2
    Director, Office of Finance and Accounting, CF-10
    Director, Office of Financial Control and Reporting, CF-12
 ISOTOPE DEVELOPMENT AND PRODUCTION
FOR RESEARCH AND APPLICATIONS PROGRAM




          Fiscal Year 2010
Annual Report and Balance Sheet




          September 30, 2010
             UNITED STATES DEPARTMENT OF ENERGY

  ISOTOPE DEVELOPMENT AND PRODUCTION FOR RESEARCH
              AND APPLICATIONS PROGRAM

              Fiscal Year 2010 Annual Report and Balance Sheet



                               Table of Contents

                                                                 Page

Management’s Discussion and Analysis                             1

      Isotope Program Overview                                   1
      Isotope Program Funding                                    3
      Isotope Program Performance                                4
      Financial Performance                                      4
      Management Challenges and Significant Issues               5
      Balance Sheet Limitations                                  5
      Systems, Controls and Legal Compliance                     5


Independent Auditors’ Report                                     7
Balance Sheets                                                   19
Notes to the Balance Sheets                                      21
Required Supplementary Stewardship Information:                  28
      Stewardship Investments – Research and Development         29




                                       i
       UNITED STATES DEPARTMENT OF ENERGY
ISOTOPE DEVELOPMENT AND PRODUCTION FOR RESEARCH
            AND APPLICATIONS PROGRAM

           Management’s Discussion and Analysis
                      (Unaudited)

                   September 30, 2010
                 UNITED STATES DEPARTMENT OF ENERGY
          ISOTOPE DEVELOPMENT AND PRODUCTION FOR RESEARCH
                      AND APPLICATIONS PROGRAM
                     Management’s Discussion and Analysis
                            September 30, 2010

Isotope Program Overview

The Isotope Development and Production for Research and Applications Program
(Isotope Program), under the direction of the Office of Nuclear Physics (NP) within the
Office of Science (SC), supports the production, distribution, and development of
production techniques for radioactive and stable isotopes that are in short supply and
critical to the United States (U.S.). Isotopes are commodities of strategic importance for
the Nation that are essential for energy exploration and innovation, medical applications,
national security, and basic research. An important goal of the program is to make key
isotopes more readily available to meet domestic U.S. needs. To achieve this goal, the
Isotope Program provides facilities and capabilities for the production of research and
commercial stable and radioactive isotopes, scientific and technical staff associated with
general isotope research and production, and a supply of critical isotopes. The Isotope
Program also supports research and development (R&D) efforts associated with
developing new and more cost-effective and efficient production and processing
techniques, and on the production of isotopes needed for research purposes.

The Nuclear Science Advisory Committee (NSAC) is a Federal advisory committee that
provides official advice to the Department of Energy (DOE or the Department) and the
National Science Foundation on the national program for basic nuclear science research.
NSAC was charged in August 2008 by SC to develop a prioritized list of research topics
using isotopes and to develop a long-range strategic plan for stable and radioactive
isotope production. The first NSAC report, Compelling Research Opportunities Using
Isotopes, released in April 2009 includes Federal, commercial, and community input and
establishes priorities for the production of research isotopes. Following the release of the
NSAC report, NP issued a broad call to university, laboratory, and commercial facilities
to submit proposals for producing these high priority research isotopes. The result was
establishment of new production capabilities at other laboratory sites and university
facilities to increase reliable sources of research isotopes at more affordable prices. The
second NSAC report, Isotopes for the Nation’s Future—A Long Range Plan, released in
November 2009, provided recommendations for a long-range strategic plan which
includes the construction and operation of an electromagnetic isotope separator facility
for stable and long-lived radioactive isotopes and a variable-energy, high-current, multi-
particle accelerator and supporting facilities that have the primary mission of isotope
production.

Isotopes are critical national resources that are used to improve the accuracy and
effectiveness of medical diagnoses and therapy, enhance national security, improve the
efficiency of industrial processes, and provide precise measurement and investigative
tools for materials, biomedical, environmental, archeological, and other research.


                                             1
Stable and radioactive isotopes are vital to the mission of many Federal agencies
including the National Institutes of Health, the National Institute of Standards and
Technology, the Environmental Protection Agency, the Department of Agriculture, the
Department of Homeland Security, the National Nuclear Security Administration
(NNSA), and other Office of Science programs. NP continues to work in close
collaboration with these Federal agencies to develop strategic plans for isotope
production and to establish effective communication to better forecast isotope needs and
leverage resources.

The Isotope Program produces isotopes only where there is no or insufficient U.S. private
sector capability or other production capacity available to meet U.S. needs and
encourages private sector investment in new isotope production ventures. The Isotope
Program adheres to the March 9, 1965, policy statement contained in the Federal Register
regarding privatization and has had several successful privatization initiatives and will
continue to entertain divesting production activities if assumed by private producers.

The Isotope Program continues to produce, process, package, and deliver isotopes not
produced commercially. Research isotopes are priced based on direct production costs.
Research isotopes are also priced by unit (e.g., millicurie), making the isotopes more
affordable to the research community by not requiring the purchase of large amounts or
an entire production batch. Commercial isotopes produced by the Isotope Program are
priced to recover full cost.

Isotopes are made available by using the Department’s unique facilities -- the
Brookhaven Linear Accelerator Isotope Producer (BLIP) at Brookhaven National
Laboratory (BNL) and the Isotope Production Facility (IPF) at Los Alamos National
Laboratory (LANL), for which the Isotope Program has stewardship responsibilities. Hot
cell facilities at BNL, LANL, and Oak Ridge National Laboratory (ORNL) are used and
maintained by the Isotope Program for processing and handling irradiated materials and
purified products. Facilities at other national laboratories are used as needed, such as the
production of isotopes at the reactors at ORNL and Idaho National Laboratory (INL).
Other byproduct material such as strontium-90 and actinium-227 is available at facilities
such as the Pacific Northwest National Laboratory (PNNL). The Isotope Program is
increasing productivity by broadening the suite of production facilities to include
university accelerator and reactor facilities which can provide cost-effective and unique
production capabilities; these include the Washington University, the University of
California at Davis, and the Missouri University Research Reactor.

All stable isotopes are processed at and distributed from ORNL with the exception of
helium-3, which is recovered at the Savannah River Site (SRS), owned and operated by
NNSA. The Isotope Program pays a facility charge for space and services at these
facilities, which are managed by other Department program offices.

The National Isotope Development Center (NIDC) is a virtual center that interfaces with
the user community and manages the coordination of isotope production across the


                                             2
facilities and business operations involved in the production, sale, and distribution of
isotopes. The NIDC includes the Isotope Business Office which is located at ORNL.

Isotope Program Funding

The Isotope Program operates under a revolving fund established by the 1990 Energy and
Water Development Appropriations Act (Public Law 101-101), as modified by the 1995
Energy and Water Development Appropriations Act (Public Law 103-316), which allows
prices charged for the Isotope Program’s products and services to be based on production
costs, market value, U.S. research needs, and other factors. Revenues from sales are
placed in and distributed from the revolving fund. Additionally, the Isotope Program
receives an annual appropriation from Congress. These funds are used to support
research, development, and mission readiness of facilities and infrastructure needed for
the production of research and commercial isotopes that are of critical importance to the
Nation and in short supply. Each site’s production expenses for processing and
distributing isotopes are offset by revenue generated from sales.

Of the total resources in the revolving fund, about 75 percent is used for operations,
maintenance, isotope production, and R&D for new isotope production techniques, with
roughly 25 percent available for process improvements, unanticipated changes in volume,
and purchases of small capital equipment, such as assay equipment and shipping
containers needed to ensure on-time deliveries. Because the Isotope Program is primarily
a user of the Department's facilities and operates similarly to the Department's Work-for-
Others Program, facility decontamination and decommissioning costs, particularly legacy
costs, are the responsibilities of the programs that operate the facilities. However, cleanup
costs directly attributable to isotope processing are the responsibility of the Isotope
Program.

American Recovery and Reinvestment Act of 2009 (Recovery Act) Investments

In FY 2009, Recovery Act funding of $15 million was designated for the Isotope
Program. A Funding Opportunity Announcement was published in March 2009 for
R&D initiatives for alternative isotope production techniques dedicated to the
development and production of stable and radioactive isotopes in short supply. In May
2009, a peer review for scientific merit was conducted and awards totaling $5 million
were provided in September 2009. The successful projects should lead to breakthroughs
that will facilitate an increased supply of isotopes and complement the existing portfolio
of isotopes produced and distributed by the Isotope Program. Funding of $10 million
was also provided to the laboratories in May 2009 for enhanced utilization of isotope
facilities. This Recovery Act project will enhance isotope production and processing
capabilities at isotope facilities to enable the Program to better meet the needs of the
Nation for isotopes in short supply for industry and basic research. In FY 2010, these
Recovery Act projects continued and are expected to be completed by October 2013.




                                             3
Isotope Program Performance

In FY 2010, the Department was in the process of updating its strategic plan. Under the
new plan, a strategic goal of DOE is to maintain a vibrant U.S. effort in science and
engineering as a cornerstone of our economic prosperity, with clear leadership in
strategic areas. The Isotope Program contributes to this goal by providing stewardship of
isotope production and technologies to advance important applications, research, and
tools for the U.S. NP internally tracks performance focused on customer satisfaction. In
FY 2010, over 98% of products and services provided met the terms of the contract/sales
order.

 Target                                                            Target       Target
                                                                    Met         Not Met
 Ensure 98% of products/services provided to customers meet          ●
 the terms (e.g., specific activity, enrichment, etc.) of the
 contract/sales order.

Financial Performance

The Isotope Program is audited consistent with the Chief Financial Officers Act of 1990
and the Government Performance and Results Act of 1993. This year’s audit was of the
balance sheet for FY 2010.

FY 2010 Net Cost of Operations (Unaudited)

In FY 2010, exchange revenues were $21.7 million and total costs were $36.9 million
resulting in the overall net cost of operations totaling $15.2 million. An analysis of the
net cost of operations in FY 2010 disclosed a small increase in exchange revenues over
projections and a modest decrease in cost over initial estimates.

Generally, Isotope Program sales projections are dynamic and require frequent
modification. Early projections showed revenue of $18.6 million in FY 2010. Actual
sales, however, were $21.7 million. In terms of revenue, radioisotopes outsold stable
isotopes by a 15 to 1 ratio in FY 2010. Accelerator-produced isotopes outsold reactor-
produced isotopes by a 1.2 to 1 ratio in FY 2010. The high ratio of radioisotopes over
stable isotopes is primarily due to the re-establishment of californium-252 production and
increased sales of strontium-82 and germanium-68.

To increase sales and reduce unit production costs, the Isotope Program will continue
seeking high volume, multi-year contracts with customers. In addition, the Isotope
Program will seek economies of scale such as increasing target yields which will result in
lower unit cost.




                                            4
Fiscal Year 2010 Balance Sheet

The balance sheet presents the Isotope Program’s assets, liabilities and net position as of
September 30, 2010. Changes from FY 2009 to FY 2010 include an increase in inventory
and a decrease in customer advances. The increase in inventory is due to reestablished
production of californium-252 and the addition of purchased Russian material to stable
isotope inventory. The decrease in customer advances is primarily due to partial relief of
the advance payment received in FY 2009 for californium-252 sales. The increase in
accounts receivable is mostly due to the growth in sales of strontium-82. The increase in
property, plant, and equipment is mainly the result of the helium-3 refurbishment project
at the Savannah River Site.

Management Challenges and Significant Issues

DOE isotope production depends primarily on parasitic use of reactors, accelerators, and
hot cells operated by the Department for other missions. The Isotope Program's principal
goal is to provide a reliable year-round supply of a wide range of radioisotopes, primarily
in small quantities, at costs which encourage its use, and on schedule. Starting in FY
2010, the Isotope Program has been working on increasing the suite of isotope production
facilities to include other capabilities at national laboratories and university accelerator
and reactor facilities which can provide cost-effective and unique capabilities.
Partnerships with industrial counterparts are being pursued to leverage resources.

Balance Sheet Limitations

The accompanying balance sheets report the financial position of the Isotope Program as
of September 30, 2010 and 2009. They were prepared using the Isotope Program's
accounting books and records in accordance with U.S. generally accepted accounting
principles and the formats prescribed by the Office of Management and Budget (OMB).
Although these balance sheets are prepared from the same books and records, it is
different from the financial reports used to monitor and control budgetary resources.

The balance sheet should be read with the realization that the Isotope Program is a
component of the U.S. Government, a sovereign entity.

Systems, Controls and Legal Compliance

The Isotope Program is not required to report on compliance with the Federal Financial
Management Improvement Act (FFMIA). However, because the Isotope Program is a
user of Departmental systems, we noted that the Department has determined it was
substantially compliant with FFMIA in FY 2010 and FY 2009. In response to Federal
Managers’ Financial Integrity Act (FMFIA) reporting, no material weaknesses in
financial system internal controls were identified by the Department in FY 2010 and FY
2009.



                                             5
The Isotope Program has no instances of non-compliance with any other laws,
regulations, and contracts that had a direct and material effect on the determination of
balance sheet amounts in FY 2010 and FY 2009.




                                           6
Independent Auditors’ Report



                           KPMG LLP
                           Suite 12000
                           1801 K Street, NW
                           Washington, DC 20006


                                            Independent Auditors’ Report


The Isotope Development and Production for Research and Applications Program and
The Inspector General, United States Department of Energy:

We have audited the accompanying balance sheets of the United States (U.S.) Department of
Energy’s (Department) Isotope Development and Production for Research and Applications
Program (the Program) (a component of the Department) as of September 30, 2010 and 2009.
The objective of our audits was to express an opinion on the fair presentation of the balance
sheets. In connection with our fiscal year 2010 audit, we also considered the Program’s internal
control over financial reporting and tested the Program’s compliance with certain provisions of
applicable laws, regulations, and contracts that could have a direct and material effect on the
balance sheet.

SUMMARY
As stated in our opinion on the balance sheets, we concluded that the Program’s balance sheet as
of September 30, 2010 is presented fairly, in all material respects, in conformity with U.S.
generally accepted accounting principles. Regarding our opinion on the balance sheet as of
September 30, 2009, we concluded that except for the effects on the balance sheet of such
adjustments, if any, as might have been determined to be necessary had we been able to apply
sufficient procedures to support the Program’s undelivered orders as presented in the
classifications of fund balance with Treasury in Note 2, the Program’s balance sheet as of
September 30, 2009 is presented fairly, in all material respects, in conformity with U.S. generally
accepted accounting principles.

Our consideration of internal control over financial reporting resulted in identifying certain
deficiencies that we consider to be material weaknesses and other deficiencies that we consider to
be significant deficiencies, as defined in the Internal Control Over Financial Reporting section of
this report, as follows:

Material Weaknesses

1. Controls over Inventory Accounting

2. Improvements Needed in the Preparation and Review of Manual Journal Entries

Significant Deficiencies

3. Unclassified Network and Information Systems Security

The results of our tests of compliance with certain provisions of laws, regulations, and contracts
disclosed no instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards, issued by the Comptroller General of the United States, and


                                                                          7
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Independent Auditors’ Report, continued




Office of Management and Budget (OMB) Bulletin Number (No.) 07-04, Audit Requirements for
Federal Financial Statements, as amended.

The following sections discuss our opinion on the Program’s balance sheets; our consideration of
the Program’s internal control over financial reporting; our tests of the Program’s compliance
with certain provisions of applicable laws, regulations, and contracts; and management’s and our
responsibilities.

OPINION ON THE BALANCE SHEETS
We have audited the accompanying balance sheets of the United States Department of Energy’s
Isotope Development and Production for Research and Applications Program as of September 30,
2010 and 2009.

The Program was unable to support its undelivered orders as presented in the classifications of
fund balance with Treasury in Note 2 as of September 30, 2009. This result does not impact the
balance sheet itself.

In our report dated January 30, 2012, we expressed a qualified opinion on the Program’s balance
sheet as of September 30, 2009, because the Program was unable to provide sufficient audit
evidence to support the completeness, existence, accuracy, and ownership of inventories held for
sale. The recorded balance of inventory was $6.84 million as of September 30, 2009.
Subsequently, the Program provided sufficient evidential matter to substantiate the fair
presentation of inventory as of September 30, 2009, and we performed additional audit
procedures to test that account balance. Accordingly, our present opinion on the balance sheet as
of September 30, 2009, as presented herein, is different from that expressed in our previous
report with respect to inventory.

In our opinion, except for the effects on the balance sheet as of September 30, 2009, of such
adjustments, if any, as might have been determined to be necessary had we been able to apply
sufficient procedures to support the Program’s undelivered orders as presented in the
classifications of fund balance with Treasury in Note 2, as discussed above, the balance sheets
referred to above present fairly, in all material respects, the financial position of the Program as
of September 30, 2010 and 2009, in conformity with U.S. generally accepted accounting
principles.

The information in the Management’s Discussion and Analysis and Required Supplementary
Stewardship Information sections is not a required part of the balance sheets, but is
supplementary information required by U.S. generally accepted accounting principles. We have
applied certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of this information. However, we did not
audit this information and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING
Our consideration of the internal control over financial reporting was for the limited purpose
described in the Responsibilities section of this report and was not designed to identify all
deficiencies in internal control over financial reporting that might be significant deficiencies or
material weaknesses and therefore, there can be no assurance that all deficiencies, significant
deficiencies, or material weaknesses have been identified. However, in our fiscal year 2010 audit,
we identified certain deficiencies in internal control over financial reporting that we consider to
be material weaknesses and other deficiencies that we consider to be a significant deficiency.
                                                      8
Independent Auditors’ Report, continued




A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. We consider the deficiencies described in Exhibit I to
be material weaknesses.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that
is less severe than a material weakness, yet important enough to merit attention by those charged
with governance. We consider the deficiencies described in Exhibit II to be a significant
deficiency.

Exhibit III presents the status of prior year material weaknesses and significant deficiencies.

We noted certain additional matters that we will report to management of the Program in a
separate letter.

COMPLIANCE AND OTHER MATTERS
The results of certain of our tests of compliance as described in the Responsibilities section of
this report, exclusive of those referred to in the Federal Financial Management Improvement Act
of 1996 (FFMIA), disclosed no instances of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04, as
amended.

The results of our tests of FFMIA disclosed no instances in which the Program’s financial
management systems did not substantially comply with the (1) Federal financial management
systems requirements, (2) applicable Federal accounting standards, and (3) the United States
Government Standard General Ledger at the transaction level.

                                            *******

RESPONSIBILITIES
Management’s Responsibilities. Management is responsible for the balance sheets; establishing
and maintaining effective internal control; and complying with laws, regulations, and contracts
applicable to the Program.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2010
and 2009 balance sheets of the Program based on our audits. Except as discussed in the second
and third paragraphs of the Opinion on the Balance Sheets section above, we conducted our
audits in accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and OMB Bulletin No. 07-04, as amended.
Those standards and OMB Bulletin No. 07-04, as amended, require that we plan and perform the
audits to obtain reasonable assurance about whether the balance sheets are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the
purpose of expressing an opinion on the effectiveness of the Program’s internal control over
financial reporting. Accordingly, we express no such opinion.

                                                      9
Independent Auditors’ Report, continued




An audit also includes:

     Examining, on a test basis, evidence supporting the amounts and disclosures in the balance
      sheets;
     Assessing the accounting principles used and significant estimates made by management;
      and
     Evaluating the overall balance sheet presentation.


We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2010 audit, we considered the Program’s internal
control over financial reporting by obtaining an understanding of the Program’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and
performing tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the balance sheet, but not for the purpose of expressing an opinion on
the effectiveness of the Program’s internal control over financial reporting. Accordingly, we do
not express an opinion on the effectiveness of the Program’s internal control over financial
reporting. We did not test all controls relevant to operating objectives as broadly defined by the
Federal Managers’ Financial Integrity Act of 1982.

As part of obtaining reasonable assurance about whether the Program’s fiscal year 2010 balance
sheet is free of material misstatement, we performed tests of the Program’s compliance with
certain provisions of laws, regulations, and contracts, noncompliance with which could have a
direct and material effect on the determination of the balance sheet amounts, and certain
provisions of other laws and regulations specified in OMB Bulletin No. 07-04, as amended,
including the provisions referred to in Section 803(a) of FFMIA. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance
with all laws, regulations, and contracts applicable to the Program. However, providing an
opinion on compliance with laws, regulations, and contracts was not an objective of our audit
and, accordingly, we do not express such an opinion.

                              ______________________________

The Program’s responses to the findings identified in our audit are presented in Exhibits I and II.
We did not audit the Program’s responses and, accordingly, we express no opinion on them.

This report is intended solely for the information and use of the Program’s management, the
Department of Energy’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other
than these specified parties.




December 21, 2012




                                                     10
Independent Auditors’ Report

Exhibit I – Material Weaknesses

1.    Controls over Inventory Accounting (Findings 10-ISO-INV-02 and 10-ISO-
INV-01)

During our fiscal year 2010 audit, we identified deficiencies in the United States Department of
Energy’s (Department) Isotope Development and Production for Research and Applications
Program’s (the Program) internal controls over inventory accounting at Los Alamos National
Laboratory (LANL) and Program Headquarters (HQ).

LANL did not properly allocate approximately $2.9 million of direct production costs at its
Isotope Production Facility (IPF) during fiscal year 2010 between inventory, cost of goods sold,
and other related expenses. The portion of costs not allocated to and recorded as Inventory
Available for Sale resulted in an immaterial understatement of inventory at September 30, 2010.
LANL overlooked these direct production costs when monthly inventory capitalization manual
journal entries were prepared and approved. The error was not detected because LANL did not
have an adequate control in place whereby all inventory costs on prepared inventory schedules
are reviewed to determine whether they should be expensed or capitalized.

Program HQ did not provide its field sites, particularly LANL and Brookhaven National
Laboratory (BNL), with guidance specifically instructing them to capitalize inventory costs in
accordance with Statement of Federal Financial Accounting Standard (SFFAS) Number (No.) 3
and SFFAS No. 4 as noted in the U.S. Department of Energy’s Accounting Handbook. Based on
the cost allocation methodology currently applied by the Program, almost all costs incurred at
LANL and BNL during times of no production are expensed as excess capacity costs, per the
Program’s understanding of guidance in the Department’s Accounting Handbook, Chapter 15,
Section 3.c. related to Excess Capacity. As a result, a significant portion of indirect costs
associated with isotope inventory at these two field sites was not subjected to allocation of costs
to inventory in fiscal year (FY) 2010 resulting in an immaterial understatement of inventory at
September 30, 2010.

We determined the cost allocation methodology described above did not result in a significant
misstatement of the balance sheet as of September 30, 2010. However, it does have the potential
of affecting the balance sheet in a material way in the future depending on the different isotopes
to be produced and the timing of the isotope production schedule.

Recommendations:

We recommend that:

    1) The National Nuclear Security Administration’s (NNSA) Field Chief Financial Officer,
       in conjunction with the Manager, Los Alamos Site Office, direct LANL to strengthen its
       controls in the isotope inventory process area to ensure that inventory costs related to
       isotope production are correctly expensed or capitalized.

    2) The Director, Facilities and Project Management Division (FPMD), Office of Nuclear
       Physics, work with the Office of the Chief Financial Officer at DOE Headquarters to
       review and document its policies and procedures related to accounting for costs to
       produce inventory and determine whether they follow the requirements of SFFAS No. 3


                                                11
Independent Auditors’ Report

Exhibit I – Material Weaknesses, continued

         and SFFAS No. 4 as stated in the Department’s Accounting Handbook. We further
         recommend FPMD ensure the annual distribution to all sites of current and updated
         Isotope Program-wide guidance related to inventory accounting.

Management’s Response:

     1) LANL – “The current process to review the capitalization and cost of goods sold
        vouchers does not include a process to review all Isotopes project codes to make sure all
        parties understand the activity being charged to each one. Starting in FY 2013, before the
        end of the second period of each fiscal year, the Property Accounting Team Leader,
        Isotope Program Manager and Isotope Program Accountant will review all Isotope
        program related project and task codes to determine the type of activity being performed
        within each code in order to ensure appropriate treatment of all costs. Any new project
        and task codes set up during the year will also go through the same review at the time it is
        set up. The Isotope Program Accountant will continue to review costs recorded in each
        project code on a monthly basis and submit vouchers to appropriately record
        capitalization, cost of goods sold and other related expenses. The Property Accounting
        Team Leader or a Senior Accountant other than the Isotope Program Accountant will
        review and validate that monthly capitalization and cost of goods sold vouchers are
        complete and in accordance with the project and task code review.”

     2) Program Headquarters – “Concur. The Director, Facilities and Project Management
        Division (FPMD), Office of Nuclear Physics, is working with the Office of the Chief
        Financial Officer at DOE Headquarters to review and document its policies and
        procedures related to accounting for costs to produce inventory and determine whether
        they follow the requirements of SFFAS No. 3 and SFFAS No. 4 as stated in the
        Department's Accounting Handbook. In addition, current and updated Isotope Program-
        wide guidance related to inventory accounting will be distributed to the sites.”


2.       Improvements Needed in the Preparation and Review of Manual Journal
         Entries (Findings 09-ISO-FINREP-01, 09-ISO-FINREP-02, and 10-ISO-
         FINREP-01)

During our fiscal year (FY) 2010 audit, we identified deficiencies in the internal controls
surrounding the manual journal entry process at three Program locations. At ORNL, (1) a single
employee was able to and did both create/prepare and post the entries to the general ledger and
(2) independent review and approval of each individual manual journal entry were not conducted.
ORNL did not have adequate policies and procedures in place over the manual journal entry
process and ORNL personnel considered periodic reconciliations of certain general ledger
accounts (in total, not by individual manual journal entries) to supporting documentation to be an
adequate control.

Similarly, we selected a sample of 10 manual journal entries recorded to the Program’s books in
Fiscal Year (FY) 2010 at Headquarters. For five of the 10 manual journal entries tested,
supporting documentation demonstrated that the manual journal entries were neither
independently reviewed prior to being posted to the Department’s general ledger for the Program
nor posted by someone other than the preparer of the entry. The Department’s Office of

                                                 12
Independent Auditors’ Report

Exhibit I – Material Weaknesses, continued

Financial Control and Reporting (OFCR) did not have adequate policies and procedures in place
to ensure that sufficient supporting documentation relating to manual journal entries was retained
and readily available and that appropriate independent review and approval occurred prior to the
posting of manual journal entries to the general ledger.

The manual journal entry control deficiencies at ORNL and Headquarters were first reported in
FY 2009. Both ORNL management and OFCR asserted that corrective action was taken during
FY 2011 based on the recommendations of the prior year findings. However, corrective actions
were not effective during the FY 2010 time period which was the scope of our audit. Therefore,
the control deficiencies remain until the corrective actions can be verified during the FY 2011
audit.

Lastly, our test work over manual journal entries at LANL identified two sample items,
documented as having been reviewed by management, that were not subjected to a sufficiently
detailed management review. We found for one sample item the previous month’s support had
been attached to the journal voucher inadvertently; however, the journal voucher amounts
recorded were correct. In the other sample item we found the support was correct; however, the
dollar values in the voucher as recorded were repeated from the previous month’s voucher. This
resulted in an immaterial misstatement.

As a result of these deficiencies, the Program is exposed to an increased level of risk due to
human error or fraud. The potential exists for erroneous and/or fraudulent entries to be made to
the Program’s financial records without those errors being prevented or detected and corrected
timely.

Per Office of Management and Budget Circular Number (No.) A-123, Management’s
Responsibility for Internal Control, “Management is responsible for developing and maintaining
effective internal control. Effective internal control provides assurance that significant
weaknesses in the design or operation of internal control, that could adversely affect the agency’s
ability to meet its objectives, would be prevented or detected in a timely manner.”

Per the Government Accountability Office’s Standards for Internal Control in the Federal
Government:

        Control activities occur at all levels and functions of the entity. They include a
        wide range of diverse activities such as approvals, authorizations, verifications,
        reconciliations, performance reviews, maintenance of security, and the creation
        and maintenance of related records which provide evidence of execution of these
        activities as well as appropriate documentation.” Furthermore, “Key duties and
        responsibilities need to be divided or segregated among different people to
        reduce the risk of error or fraud. This should include separating the
        responsibilities for authorizing transactions, processing and recording them,
        reviewing the transactions, and handling any related assets. No one individual
        should control all key aspects of a transaction or event.




                                                13
Independent Auditors’ Report

Exhibit I – Material Weaknesses, continued

Recommendations:

We recommend that:

(1) The Department's OFCR monitor policies and procedures to ensure that adequate
    documentation is maintained and readily available to support (a) all manual journal entries
    posted to the Department's general ledger for the Program and (b) the independent review and
    approval of all manual journal entries prior to posting. OFCR asserted to us that these
    corrective actions were implemented subsequent to fiscal year 2010;

(2) The Manager of the ORNL Site Office direct ORNL to establish, implement, and monitor
    policies and procedures to ensure that proper segregation of duties exist and sufficiently
    precise independent reviews and approvals are documented for each individual manual
    journal entry prior to posting to the ORNL general ledger for the Program. ORNL
    management asserted to us that these corrective actions were implemented subsequent to
    fiscal year 2010; and

(3) We recommend that the National Nuclear Security Administration’s (NNSA) Field Chief
    Financial Officer, in conjunction with the Manager, Los Alamos Site Office, direct LANL to
    strengthen and monitor policies and procedures to ensure that proper segregation of duties
    exist and that independent reviews and approvals at a sufficiently low level of monetary
    precision are documented for each individual manual journal entry posted to the LANL
    general ledger for the Program.

Management’s Response:

(1) OFCR – “Management concurs with the recommendations.”

(2) ORNL – “ORNL management developed and implemented corrective action steps on a going-
forward basis in FY 2011 to address the recommendations as set forth by KPMG in the prior year
finding. This finding remains open because the corrective action took place in FY 2011,
subsequent to the scope of the FY 2010 Balance Sheet Audit. As a result, KPMG does not have
any recommendations for this finding, and ORNL management does not need to take any
additional action to address this finding. Closure of this finding will be re-visited during the
subsequent financial statement audit.”

(3) LANL – “LANL will review and strengthen the manual journal voucher procedures by
clearly defining the roles of preparer, reviewer and approver. Additionally, guidance will be
developed and communicated as to what is adequate documentation, what is a thorough review,
and the process for obtaining and documenting independent approval.”




                                              14
Independent Auditors’ Report

Exhibit II – Significant Deficiencies


3.      Unclassified Network and Information Systems Security

The Department uses a series of interconnected unclassified networks and information systems.
Federal and Departmental directives require the establishment and maintenance of security over
unclassified information systems, including financial management systems. Past audits identified
significant weaknesses in selected systems and devices attached to the computer networks at
some Department sites. The Department has implemented corrective actions to address many of
the identified weaknesses at the sites whose security controls we, and the Department’s Office of
Health, Safety and Security, reviewed in prior years. However, we continued to identify similar
weaknesses in security controls at the sites we reviewed in fiscal year 2010. The Department
recognizes the need to enhance its unclassified cyber security program and has categorized
unclassified cyber security as a leadership challenge in its Federal Managers' Financial Integrity
Act assurance statement for fiscal year 2010. Improvements are still needed in the areas of system
and application access and related access privileges, password management, configuration
management, and restriction of network services.

Our fiscal year 2010 audit disclosed information system security deficiencies consistent with our
findings in prior years. Specifically, we noted weaknesses within layered security controls for
network servers, desktop systems, and business applications. We identified multiple instances of
blank or easily guessed administrator or user passwords on network systems that could permit
unauthorized access to those systems and their data. We also found weak access controls for
shared directories and files, in which unauthorized users could potentially gain access to sensitive
data, including personally identifiable information, or modify configuration settings.

In the area of configuration and vulnerability management, we identified deficiencies in the patch
management process for timely and secure installation of critical software patches, with
numerous instances in which security patches had not been applied to correct known
vulnerabilities more than three months after the patches became available. We also identified
instances where sites had not correctly configured their vulnerability scanning software to ensure
known vulnerabilities were identified and remediated in a timely manner, or had not fully
implemented an effective vulnerability and patch management program as a result of having
insufficient vulnerability scanning licenses to scan all systems.

While many of these cyber security deficiencies were corrected immediately after we identified
and reported them to site management, weaknesses in the process for identifying, monitoring, and
remediating such deficiencies have continued from prior years. In several instances, the sites had
not fully implemented procedures designed to ensure that minimum cyber security requirements
were met. Furthermore, even when policies and procedures were established, implementation of
those policies and procedures were sometimes inconsistent and sites had not always validated,
through testing or other means, that the procedures were operating effectively.

The Department’s Office of Inspector General (OIG) reported on these deficiencies in its
evaluation report on The Department’s Unclassified Cyber Security Program - 2010, dated
October 2010. The OIG noted that identified weaknesses occurred, in part, because Departmental
elements had not always ensured that cyber security requirements were effectively implemented.
Consistent with prior year findings, the OIG reported that the National Nuclear Security
Administration (NNSA) had begun, but not fully implemented, a program for management

                                                15
Independent Auditors’ Report

Exhibit II – Significant Deficiencies, continued

oversight and periodic evaluation of the cyber security practices of its Federal sites offices and
associated field sites. The OIG also identified deficiencies in configuration management
processes at several sites in which, contrary to the Department’s policies and procedures, systems
were placed into operation prior to completing required system security plans or following
incomplete testing of security controls.

The identified vulnerabilities and control weaknesses in unclassified network and information
systems increase the possibility that malicious destruction or alteration of data or unauthorized
processing could occur. Because of our concerns, we performed supplemental procedures and
identified compensating controls that mitigate the potential effect of these security weaknesses on
the integrity, confidentiality and availability of data in the Department’s financial applications.

During fiscal year 2010, the Department has taken positive steps to enhance its unclassified cyber
security program, including establishing a Computer Security Governance Council at the Under
Secretary level to oversee its cyber security reform efforts, refining cyber security policies and
procedures, and initiating the implementation of an automated tool to aid in cyber security and
performance reporting.

Recommendation:

Because the Isotope Development and Production for Research and Applications Program (the
Program) does not have the ability to affect changes to the Department’s network security, no
further action is needed by the Program other than to monitor the progress of the Office of Chief
Information Officer (OCIO). While progress has been achieved by the Department, continued
focus is needed to strengthen the management review process to include better monitoring of field
sites to ensure the adequacy of cyber security program performance and improve the use of
government-wide security configuration standards in the resolution of the vulnerabilities and
control weaknesses described above.

Therefore, we recommended in the Department’s Independent Auditors’ Report dated November
12, 2010, that NNSA and program officials, in conjunction with the Chief Information Officer,
fully implement policies and procedures to ensure that the Federal cyber security standards are
met, that networks and information systems are adequately protected against unauthorized access,
and that an adequate performance monitoring program is implemented, such as the use of
periodic evaluations by Headquarters management, to ensure the effectiveness of sites’ cyber
security program implementation.

Detailed recommendations to address the issues discussed above have been separately reported to
the Department’s program offices and the OCIO.

Management’s Response:

Program Headquarters – Management concurs with the recommendation as presented, with the
recognition that the Department’s CIO is the lead office in affecting change to the Department’s
information systems.




                                                16
Independent Auditors’ Report

Exhibit III – Status of Prior Year Material Weaknesses and Significant Deficiencies


Prior Year     Material    Weakness/Significant         Status at September 30, 2010
Deficiency

(with parenthetical disclosure
of year first reported)

1. Controls over Accounting for Inventory at Not fully implemented – Brookhaven
   Brookhaven National Laboratory – considered National Laboratory inventory accounting
   a Material Weakness (2006)                  issues continue to be reported as a Material
                                               Weakness in Exhibit I

2. Improvements Needed in Financial Reporting – Not fully implemented – issues with
   considered a Material Weakness (2006)        manual journal entries continue to be
                                                reported as a Material Weakness in Exhibit
                                                I

3. Unclassified Network and Information Systems Not fully implemented – unclassified
   Security – considered a Significant Deficiency network and information systems security
   (1999)                                         issues continue to be reported as a
                                                  Significant Deficiency in Exhibit II

4. Accounting for Property, Plant, and Equipment Matter considered closed
   – considered a Significant Deficiency (2007)




                                                  17
       UNITED STATES DEPARTMENT OF ENERGY
ISOTOPE DEVELOPMENT AND PRODUCTION FOR RESEARCH
            AND APPLICATIONS PROGRAM

                    Balance Sheets

              September 30, 2010 and 2009




                          18
                    UNITED STATES DEPARTMENT OF ENERGY
             ISOTOPE DEVELOPMENT AND PRODUCTION FOR RESEARCH
                         AND APPLICATIONS PROGRAM
                                               Balance Sheets
                                      As of September 30, 2010 and 2009


                                  Assets                                      FY 2010           FY 2009
Intragovernmental:
   Fund balance with Treasury (note 2)                                    $ 57,379,451      $ 60,948,495
   Accounts receivable (note 3)                                                 62,252           143,305
      Total intragovernmental assets                                          57,441,703        61,091,800
Accounts receivable, net (note 3)                                              2,592,639          999,134
Inventory held for sale, net (note 4):
   Radioactive isotopes                                                        8,848,744         7,117,040
   Stable isotopes                                                             4,557,938         3,676,962
   Allowance - isotope inventories                                            (3,944,213)       (3,958,669)
      Total inventories held for sale, net                                     9,462,469         6,835,333
Property, plant, and equipment, net (note 5)                                  18,462,882        16,596,870
      Total assets                                                        $ 87,959,693      $ 85,523,137

                 Liabilities and Net Position
Non-Intragovernmental liabilities covered by budgetary resources:
  Accounts payable/accrued expenses                                       $      103,908    $       98,153
  Customer advances (note 1k)                                                  5,036,134         6,543,469
    Total liabilities                                                          5,140,042         6,641,622
Commitments and contingencies (note 6)
Net Position:
  Cumulative results of operations - earmarked funds                          82,819,651        78,881,515
      Total liabilities and net position                                  $ 87,959,693      $ 85,523,137

See Accompanying Notes to the Balance Sheets




                                                  19
       UNITED STATES DEPARTMENT OF ENERGY
ISOTOPE DEVELOPMENT AND PRODUCTION FOR RESEARCH
            AND APPLICATIONS PROGRAM

              Notes to the Balance Sheets

              September 30, 2010 and 2009




                          20
                   UNITED STATES DEPARTMENT OF ENERGY
            ISOTOPE DEVELOPMENT AND PRODUCTION FOR RESEARCH
                        AND APPLICATIONS PROGRAM
                             Notes to the Balance Sheets
                         As of September 30, 2010 and 2009

1)   Description of Reporting Entity, Basis of Presentation and Accounting, and Summary of
     Significant Accounting Policies
     (a)   Reporting Entity
           The United States Department of Energy’s (the Department) Isotope Development and
           Production for Research and Applications Program (Isotope Program) is primarily a user of
           Departmental facilities and provides funding through the Department’s field offices to
           management and operating (M&O) contractors for the production and distribution of isotopes and
           related services. With the exception of Brookhaven National Laboratory’s (BNL) Brookhaven
           Linear Isotope Producer (BLIP) and Los Alamos National Laboratory’s (LANL) Isotope
           Production Facility (IPF), since the Isotope Program uses only a small portion of the capacity of
           each facility, management of the facilities producing isotopes and related services is the
           responsibility of other programs within the Department. The Isotope Program provides program
           direction and oversight for the production and sale of its products and services. Except as
           indicated in note 6, the full cost of the products and services utilized by the Isotope Program at
           Departmental facilities, including such items as labor, benefits and packaging, is reflected in the
           Balance Sheets.

           Isotope production and research and development activities are performed at the following sites:
           BNL, Upton, New York; LANL, Los Alamos, New Mexico; Oak Ridge National Laboratory
           (ORNL), Oak Ridge, Tennessee; and Idaho National Laboratory, Idaho Falls, Idaho. Strontium-
           90 is stored at Pacific Northwest National Laboratory, Richland, Washington. The Isotope
           Program also funds the operation of the National Nuclear Security Administration owned helium-
           3 processing facility, Building 236H, at Savannah River Site, Aiken, South Carolina.

           The Isotope Program’s activities are separated into the following segments:

                 Operations
                 Operations activities consist of the work performed by core facility scientists and engineers
                 to effectively operate the Isotope Program facilities, including maintenance and
                 investments in new capabilities. Operations are categorized into three principal groups:
                 national laboratories, universities, and National Isotope Development Center.

                 Research

                 Research identifies, designs, and optimizes production targets and separation methods.
                 Examples include development of positron-emitting radionuclides to support the rapidly
                 growing area of medical imaging using Positron Emission Tomography, isotopes that
                 support medical research to be used to diagnose and treat diseases spread through acts of
                 bioterrorism, production methods for alpha-emitting radionuclides that exhibit great
                 potential in disease treatment, research isotopes for biomedical applications, and alternative


                                                     21
            isotope supplies for national security applications and advanced power sources. Research
            activities are supported at universities, national laboratories and industries.

(b)   Basis of Presentation
      The accompanying balance sheets have been prepared in accordance with United States (U.S.)
      generally accepted accounting principles to report only the Isotope Program’s financial position,
      and not that of the Department taken as a whole.

      The Department’s headquarters, field offices, and the M&O contractors operating the facilities
      discussed in note 1(a) record Isotope Program activity in their accounting systems. The M&O
      contractors integrate their accounting systems with the Department through the use of reciprocal
      accounts. All M&O contractors are required under provisions of their respective contracts to
      maintain a separate set of accounts and records for recording and reporting Isotope Program
      financial transactions in accordance with Departmental accounting practices and procedures. The
      accompanying balance sheets are prepared by extracting and reclassifying Isotope
      Program-related data from the financial records of the Department and its M&O contractors.

      Intragovernmental activities result from activity with other Federal agencies. All other accounts
      result from activity with parties outside the Federal government.

(c)   Basis of Accounting
      The Isotope Program’s balance sheets are prepared using the accrual method of accounting. The
      accrual method of accounting requires recognition of the financial effects of transactions, events,
      and circumstances in the periods when those transactions, events, and circumstances occur,
      regardless of when cash is received or paid. The Isotope Program also uses budgetary accounting
      to facilitate compliance with legal constraints and to keep track of its budget authority at the
      various stages of execution, including allotment, obligation, and eventual outlay.

(d)   Fund Balance with Treasury
      Isotope Program cash receipts and disbursements are processed through the U.S. Department of
      the Treasury (the Treasury). Funds with the Treasury are available to the Isotope Program
      through use of a revolving fund to pay current liabilities and to finance authorized purchase
      commitments.

(e)   Accounts Receivable
      Accounts receivable are reduced to net realizable value by an allowance for uncollectible
      accounts. This allowance has been determined based on an analysis of outstanding balances, past
      experience, and present market conditions.




                                                22
(f)   Inventories Held for Sale
      Isotope Program inventories include stable isotopes, reactor-produced radioisotopes, and
      accelerator produced radioisotopes. However, any isotopes with a half-life of 75 days or less are
      normally capitalized to inventory, then expensed to cost of goods sold in the month they are
      produced, consistent with the Isotope Program’s inventory valuation policy. For fiscal year end
      reporting only, any short-lived isotope with a half life of 75 days or less and a remaining
      inventory value greater than $35,000 is reported as inventory and not expensed to cost of goods
      sold or decay until the following fiscal year. Periodic entries are recorded to reflect decay losses
      for all isotopes, regardless of the half-life. All inventories are valued based on average cost,
      reduced for quantities on hand in excess of sales over the previous five years, and are stated at the
      lower of cost or market value.
(g)   Property, Plant, and Equipment
      The Isotope Program is primarily dependent on a number of Departmental production facilities
      and, as such, does not own or fully control the land, buildings and most other assets it uses, but
      rather is charged by other programs for the use of those assets.

      The Isotope Program makes equipment purchases and constructs equipment as needed for Isotope
      Program operations, such as remote handling devices and shipping containers. Property, plant,
      and equipment costing more than $50,000 with an expected useful life of two or more years is
      capitalized and depreciated on a straight-line basis over the estimated useful life of the asset,
      ranging from 5 to 50 years.

(h)   Liabilities
      The Isotope Program’s accounts payable and accrued expenses represent amounts of monies or
      other resources likely to be paid as a result of a transaction or event that has already occurred. See
      Note 1(k) for discussion of customer advances.

(i)   Annual, Sick, and Other Leave
      The Office of Science (SC) provides for the Isotope Program’s annual, sick, and other leave.
      Annual leave is expensed as it is earned. Sick and other leave are expensed as taken.

(j)   Revolving Fund Structure
      The Fiscal Year 1990 Energy and Water Development Appropriations Act, Public Law 101-101
      (1990 Act), established a revolving fund to be used to carry out the Isotope Program’s production,
      distribution, and sale of isotopes and related services. The 1990 Act required that isotope fees be
      set to recover full cost. However, the Fiscal Year 1995 Energy and Water Development
      Appropriations Act, Public Law 103-316, modified predecessor acts to allow prices charged for
      the Isotope Program’s products and services to be based on production costs, market value, U.S.
      research needs, and other factors. See Note 1(m) for additional discussion of Public Law 103-316.

(k)   Customer Advances and Pricing Policy
      As a revolving fund, the Isotope Program receives all revenues from sales of isotopes and related
      services. Certain customers may be required to make payment in advance of delivery. These
      advances are recorded as customer advances. Exchange revenues are recognized when goods
      have been delivered or services performed. On September 30, 2010, the Isotopes Program balance
      for customer advances was $5,036,134, of which $2,819,133 is current and $2,217,001 is non-
                                              23
      current. On September 30, 2009, the Isotopes Program balance for customer advances was
      $6,543,469, of which $2,895,930 is current and $3,647,539 is non-current.

      The Isotope Program prices isotopes sold for medical and industrial applications to recover full
      cost. Isotopes sold for research and development are priced to recover direct costs of production,
      not to exceed the established unit cost as determined by the Isotope Program. The Isotope
      Program sells products to various public customers such as colleges and universities, and research
      institutions, as well as to other Federal agencies. Higher prices for research and development
      isotopes based on full cost might reduce the quantity of isotopes demanded; therefore, the
      difference between revenue received and such higher prices does not necessarily provide an
      indication of revenue foregone.

(l)   Concentration of Risk (unaudited)
      A substantial amount of the Isotope Program's revenue is derived from a small percentage of
      commercial customers (about 90 percent of the Isotope Program's combined revenues were
      provided by ten customers in fiscal year 2010). Commercial customers are charged a fee which is
      held for unanticipated abnormal events such as spills, defective products, or equipment failures.
      If the sale of commercial isotopes drastically decreases, additional funding may be required to
      maintain isotope staff at current levels. This is not considered to be a significant risk for the next
      fiscal year.
(m)   Budgetary Financing Sources
      The Fiscal Year 1995 Energy and Water Appropriations Act, Public Law 103-316, established
      annual funding for the Isotope Program in the Department’s energy supply, research, and
      development appropriations. The Office of Science’s Nuclear Physics program funds the Isotope
      Program to support research, development, and production of research and commercial isotopes
      that are of critical importance to the Nation and in short supply.

(n)   Pensions and Other Retirement Benefits
      All permanent Departmental employees participate in either the Civil Service Retirement System
      (CSRS) or the Federal Employees Retirement System (FERS). Both are contributory pension
      plans and are not covered under the Employee Retirement Income Security Act of 1974.

      Actuarially determined data for CSRS and FERS regarding the present value of accumulated
      benefits, assets available for benefits, and unfunded pension liability, are maintained and reported
      by the Office of Personnel Management (OPM) and are not allocated to individual departments
      and agencies.

      Statement of Federal Financial Accounting Standards (SFFAS) Number (No.) 5, Accounting for
      Liabilities of the Federal Government, requires Federal entities to recognize expense for
      employees’ retirement plan benefits equal to the service costs for these employees for the year
      based on the plans’ actuarial cost methods and assumptions. The difference between the
      retirement benefits expense and contributions made by the entity is recorded as an imputed
      financing source, as these costs will ultimately be funded by OPM.




                                                 24
      (o)      Earmarked Funds
               SFFAS No. 27, Identifying and Reporting Earmarked Funds, requires separate identification of
               earmarked funds on the balance sheet. Earmarked funds are financed by specifically identified
               revenues, which remain available over time. The Isotope Program's only fund is an earmarked
               fund. The fund includes receipts generated from the sales of isotopes and services that are used
               for isotope production and distribution, and operations and research activities performed by the
               Isotope Program. These specifically identified revenues are received primarily from sources
               external to the Federal Government, are required by statute to be used for designated activities,
               and must be accounted for separately from the Government's general revenue.

      (p)      Use of Estimates
               The preparation of the balance sheets in conformity with U.S. generally accepted accounting
               principles requires management to make estimates and assumptions that affect the reported
               amounts of assets and liabilities and disclosure of contingent assets and liabilities at the date of
               the balance sheets. Actual results could differ from those estimates.

      (q)      Tax Status
               The Isotope Program, as a component of a Federal entity, is not subject to Federal, state, or local
               income taxes. Accordingly, no provision for income taxes is recorded in the accompanying
               balance sheets.

(2)   Fund Balance with Treasury

      Revolving fund balance consists of the following at September 30, 2010 and 2009:

                                                                         2010                  2009
      Unobligated budgetary resources:
        Available                                                   $     16,844,404     $      17,501,095
        Other unobligated balances not available                                   -             6,733,760
      Obligations balance not yet disbursed                               40,535,047            36,713,640

            Total Fund Balance with Treasury                        $     57,379,451     $      60,948,495


(3)   Accounts Receivable

      Accounts receivable consists of the following at September 30, 2010 and 2009:

                                                                        2010                    2009
      Accounts receivable from the Public                       $         2,618,629      $        1,025,124
      Less allowance for uncollectible accounts                             (25,990)                (25,990)
            Total accounts receivable from the Public, net      $         2,592,639      $          999,134

      Intragovernmental accounts receivable                     $            62,252      $          143,305



                                                         25
(4)   Inventories Held For Sale, Net

      Inventories held for sale consist of the following at September 30, 2010 and 2009:

                                                                                       2010

                                                               Radioisotopes       Stable Isotopes           Total
       Cost                                                    $ 8,848,744         $ 4,557,938            $ 13,406,682
       Less:
               Allowance for excessive inventory quantities         (348,010)          (3,584,628)            (3,932,638)
               Allowance for lower of cost or market value           (11,575)                 -                  (11,575)
       Total inventories, net                                  $ 8,489,159         $        973,310       $    9,462,469


                                                                                       2009

                                                               Radioisotopes       Stable Isotopes           Total
       Cost                                                    $ 7,117,040         $ 3,676,962            $ 10,794,002
       Less:
               Allowance for excessive inventory quantities         (367,303)          (3,579,791)            (3,947,094)
               Allowance for lower of cost or market value           (11,575)                 -                  (11,575)
       Total inventories, net                                  $ 6,738,162         $         97,171       $    6,835,333



(5)   Property, Plant, and Equipment, Net
      Property, plant, and equipment consists of the following at September 30, 2010 and 2009:

                                                                         2010                             2009

      Improvements to land                                      $                 11,780              $          11,780
      Less accumulated depreciation                                                 (955)                          (816)
        Improvements to land, net                                                 10,825                         10,964
      Buildings, improvements, and renovations                               14,314,681                       14,403,566
      Less accumulated depreciation                                          (1,624,138)                      (1,352,567)
        Buildings, improvements, and renovations, net                        12,690,543                       13,050,999
      Equipment                                                               8,304,053                        8,001,114
      Less accumulated depreciation                                          (5,465,267)                      (4,780,384)
        Equipment, net                                                          2,838,786                      3,220,730
      Construction - work in progress                                           2,922,728                       314,177
      Total Property, plant, and equipment, net                 $            18,462,882               $       16,596,870




                                                          26
(6)   Potential Decontamination and Decommissioning (D&D) Costs
      The Isotope Program may be responsible for a portion of D&D for other facilities at which it conducts
      operations. As of September 30, 2010 and 2009, the Department has not estimated D&D costs for such
      facilities, and the Isotope Program has not been assigned responsibility for D&D costs. Accordingly, no
      provision for D&D costs at other isotope facilities is included in the accompanying balance sheet.




                                                     27
       UNITED STATES DEPARTMENT OF ENERGY
ISOTOPE DEVELOPMENT AND PRODUCTION FOR RESEARCH
            AND APPLICATIONS PROGRAM

       Required Supplementary Stewardship Information
                       (Unaudited)


                    September 30, 2010




                             28
                      UNITED STATES DEPARTMENT OF ENERGY
               ISOTOPE DEVELOPMENT AND PRODUCTION FOR RESEARCH
                             AND APPLICATIONS PROGRAM
                      Stewardship Investments - Research and Development
                                      September 30, 2010



                                                                                                Total
                                                                                             Research and
                                            Process                  Applied                 Development
                                          Development                Research                  Expense
Fiscal year ended September 30:
               2006                   $         256,099          $      100,000          $         356,099
               2007                             437,002                       0                    437,002
               2008                             100,003                       0                    100,003
               2009                             277,590                       0                    277,590
               2010                           1,716,572                       0                  1,716,572
                             Total    $       2,787,266          $      100,000          $       2,887,266


Basis of Presentation
The Isotope Development and Production for Research and Applications Program’s (Isotope Program)
process development and applied research include all costs for these activities that are intended to
increase or maintain national economic productive capacity or yield other future benefits. The Isotope
Program supports research for the development of alternative production and extraction techniques of
stable and radioactive isotopes, and the production of research isotopes identified by Nuclear Science
Advisory Committee as needed for high priority research opportunities across a broad range of scientific
disciplines. The increase in fiscal year 2010 is also attributable to investments made with American
Recovery and Reinvestment Act funds. Discussed below are some of the accomplishments and
contributions by the Isotope Program.

Major Research and Development Projects

(a)   Process Development
      (1) Process development is the translation of research findings or other knowledge into a plan or
      design for new isotopes or processes that lead to a significant improvement in existing isotope uses.
      In fiscal year 2006 through fiscal year 2009, funding was provided for process improvement
      projects. In an ongoing effort to improve the specific activity of copper-67, BNL investigated the
      use of a highly enriched zinc-68 target in place of natural zinc. A test irradiation with zinc-68
      improved the specific activity three-fold over the best previous result. In order to improve the
      economics of this process, a method to recover and reuse the enriched material from the process
      waste was successfully developed. A Drug Master File for the tungsten-188/rhenium-188 generator
      system, used in cancer research, is now on file with the Food and Drug Administration. Coupled
      with the hot cells at ORNL now being approved for current Good Manufacturing Practices, the
      tungsten-188/rhenium-188 generator will be suitable for human clinical trials.

      (2) Alpha emitting isotopes have shown strong potential in medical cancer therapy research.
      However, the current supply of alpha emitting isotopes is limited. Several R&D projects were
                                                    29
      initiated in fiscal year 2010 to increase the supply. LANL scientists are exploring the accelerator
      production of actinium-225 from a thorium-232 target at LANL’s IPF at 100 million electron volts
      (MeV) and BNL’s BLIP at 200 MeV. ORNL scientists are studying the accelerator production of
      thorium-229, a long half-life radioisotope that can be used as a source of actinium-225, one of its
      radioactive decay products. Both ORNL and PNNL are recovering and purifying actinium-227
      from surplus actinium-beryllium neutron sources. The actinium-227 can be used as a source for the
      decay production of very high purity thorium-227 and radium-223, another medically important
      alpha-emitting isotope.

      (3) Researchers at ORNL completed the engineering design and began procurement of components
      for the fabrication of a state-of-the-art research-scale prototype electromagnetic separator for stable
      isotope enrichment. This separator will use modern ion source and collector technologies that could
      lead to production scale separators for efficient, cost effective production of a portfolio of essential
      enriched isotopes.

(b)   Applied Research
      Applied research is planned research or critical investigation aimed at discovery of new knowledge
      with the hope that such knowledge will be useful in developing new isotope products, services,
      processes, or techniques that bring about a significant improvement in serving the needs of the
      United States’ medical, industrial, and research communities. Since fiscal year 2004, no new
      applied research projects were funded. However, the Isotope Program currently contributes to
      applied research coordination by producing commercial and research isotopes that are important for
      basic research and applications.




                                                     30
                                                                  IG Report No. OAS-FS-13-09

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
